1a
APPENDIX A
Court of Criminal Appeals of Oklahoma.
STATE EX REL. Mark MATLOFF,
District Attorney, Petitioner
v.
The Honorable Jana WALLACE,
Associate District Judge, Respondent.
Case No. PR-2021-366
Filed August 12, 2021
OPINION
LEWIS, Judge:
¶1 The State of Oklahoma, by Mark Matloff,
District Attorney of Pushmataha County, petitions
this Court for the writ of prohibition to vacate the
Respondent Judge Jana Wallace’s April 12, 2021 order
granting post-conviction relief. Judge Wallace’s order
vacated and dismissed the second degree murder
conviction of Clifton Merrill Parish in Pushmataha
County Case No. CF-2010-26. Because the
Respondent’s order is unauthorized by law and
prohibition is a proper remedy, the writ is GRANTED.
FACTS
¶2 Clifton Parish was tried by jury and found guilty
of second degree felony murder in March, 2012. The
jury sentenced him to twenty-five years imprisonment.
This Court affirmed the conviction on direct appeal in
Parish v. State, No. F-2012-335 (Okl. Cr., March 6,
2014) (unpublished). Mr. Parish did not petition for
rehearing, and did not petition the U.S. Supreme
Court for certiorari within the allowed ninety-day time

2a
period. On or about June 4, 2014, Mr. Parish’s
conviction became final.1
¶3 On August 17, 2020, Mr. Parish filed an
application for post-conviction relief alleging that the
State of Oklahoma lacked subject matter jurisdiction
to try and sentence him for murder under the Supreme
Court’s decision in McGirt v. Oklahoma, ––– U.S. –––
–, 140 S. Ct. 2452, 207 L.Ed.2d 985 (2020). Judge
Wallace held a hearing and found that Mr. Parish was
an Indian and committed his crime within the
Choctaw Reservation, the continued existence of
which was recently recognized by this Court, following
McGirt, in Sizemore v. State, 2021 OK CR 6, ¶ 16, 485
P.3d 867, 871.
¶4 Because the Choctaw Reservation is Indian
Country, Judge Wallace found that the State lacked
subject matter jurisdiction to try Parish for murder
under the Major Crimes Act. 18 U.S.C. § 1153.
Applying the familiar rule that defects in subject
matter jurisdiction can never be waived, and can be
raised at any time, Judge Wallace found Mr. Parish’s
conviction for second degree murder was void and
ordered the charge dismissed.
¶5 Judge Wallace initially stayed enforcement of
the order. The State then filed in this Court a verified
request for a stay and petitioned for a writ of
prohibition against enforcement of the order granting
post-conviction relief. In State ex rel. Matloff v.
Wallace, 2021 OK CR 15, ––– P.3d ––––, this Court
Teague v. Lane, 489 U.S. 288, 295, 109 S. Ct. 1060, 103 L.Ed.2d
334 (1989) (defining a final conviction as one where judgment was
rendered, the availability of appeal exhausted, and the time to
petition for certiorari had elapsed).
1

3a
stayed all proceedings and directed counsel for the
interested parties to submit briefs on the following
question:
In light of Ferrell v. State, 1995 OK CR
54, 902 P.2d 1113, United States v. Cuch,
79 F.3d 987 (10th Cir. 1996), Edwards v.
Vannoy (No. 19-5807), 593 U.S. –––– [141
S.Ct. 1547, 209 L.Ed.2d 651] (May 17,
2021), cases cited therein, and related
authorities, should the recent judicial
recognition
of
federal
criminal
jurisdiction in the Creek and Choctaw
Reservations announced in McGirt and
Sizemore be applied retroactively to void
a state conviction that was final when
McGirt and Sizemore were announced?
¶6 The parties and amici curiae2 subsequently filed
briefs on the question presented. For reasons more
fully stated below, we hold today that McGirt v.
Oklahoma announced a new rule of criminal procedure
which we decline to apply retroactively in a state postconviction proceeding to void a final conviction. The
writ of prohibition is therefore GRANTED and the
order granting post-conviction relief is REVERSED.

The Cherokee, Chickasaw, Choctaw, and Muscogee (Creek)
Nations filed a joint brief as amici curiae in response to our
invitation. The Acting Attorney General of Oklahoma, counsel
from the Capital Habeas Unit of the Federal Public Defender’s
Office for the Western District of Oklahoma, and the Oklahoma
Criminal Defense Lawyer’s Association also submitted briefs as
amicus curiae. We thank counsel for their scholarship and
vigorous advocacy.

2

4a
ANALYSIS
¶7 In state post-conviction proceedings, this Court
has previously applied its own non-retroactivity
doctrine—often drawing on, but independent from, the
Supreme Court’s non-retroactivity doctrine in federal
habeas corpus—to bar the application of new
procedural rules to convictions that were final when
the rule was announced. See Ferrell v. State, 1995
OK CR 54, ¶¶ 5-9, 902 P.2d 1113, 1114-15 (citing
Teague, supra) (finding new rule governing
admissibility of recorded interview was not retroactive
on collateral review); Baxter v. State, 2010 OK CR 20,
¶ 11, 238 P.3d 934, 937 (noting our adoption of Teague
non-retroactivity analysis for new rules in state postconviction review); and Burleson v. Saffle, 278 F.3d
1136, 1141 n.5 (10th Cir. 2002) (noting incorporation
“into state law the Supreme Court’s Teague approach
to analyzing whether a new rule of law should have
retroactive effect,” citing Ferrell, supra).
¶8 New rules of criminal procedure generally apply
to cases pending on direct appeal when the rule is
announced, with no exception for cases where the rule
is a clear break with past law. See Carter v. State, 2006
OK CR 42, ¶ 4, 147 P.3d 243, 244 (citing Griffith v.
Kentucky, 479 U.S. 314, 323, 107 S.Ct. 708, 93 L.Ed.2d
649 (1987)) (applying new instructional rule of
Anderson v. State, 2006 OK CR 6, 130 P.3d 273 to case
tried before the rule was announced, but pending on
direct review). But new rules generally do not apply
retroactively to convictions that are final, with a few
narrow exceptions. Ferrell, 1995 OK CR 54, ¶ 7, 902
P.2d at 1114-15; Thomas v. State, 1994 OK CR 85,
¶ 13, 888 P. 2d 522, 527 (decision requiring that
prosecution file bill of particulars no later than

5a
arraignment did not apply to convictions already
final).
¶9 Following Teague and its progeny, we would
apply a new substantive rule to final convictions if it
placed certain primary (private) conduct beyond the
power of the Legislature to punish, or categorically
barred certain punishments for classes of persons
because of their status (capital punishment of persons
with insanity or intellectual disability, or juveniles, for
example). See, e.g., Pickens v. State, 2003 OK CR 16,
¶¶ 8-9, 74 P.3d 601, 603 (retroactively applying Atkins
v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002) because Atkins barred capital punishment
for persons with intellectual disability).
¶10 Under Ferrell, we also would retroactively
apply a new “watershed” procedural rule that was
essential to the accuracy of trial proceedings, but such
a rule is unlikely ever to be announced. Ferrell, 1995
OK CR 54, ¶ 7, 902 P.2d at 1115; see Beard v. Banks,
542 U.S. 406, 417, 124 S.Ct. 2504, 159 L.Ed.2d 494
(2004) (identifying Gideon v. Wainwright, 372 U.S.
335, 83 S.Ct. 792, 9 L.Ed.2d 799 (1963) as the
paradigmatic watershed rule, and likely the only one
ever announced by the Supreme Court); Edwards v.
Vannoy, ––– U.S. ––––, 141 S. Ct. 1547, 1561, 209
L.Ed.2d 651 (2021) (acknowledging the “watershed”
rule concept was moribund and would no longer be
incorporated in Teague retroactivity analysis).
¶11 Like the Supreme Court, we have long adhered
to the principle that the narrow purposes of collateral
review, and the reliance, finality, and public safety
interests in factually accurate convictions and just
punishments, weigh strongly against the application
of new procedural rules to convictions already final

6a
when the rule is announced. Applying new procedural
rules to final convictions, after a trial or guilty plea
and appellate review according to then-existing
procedures, invites burdensome litigation and
potential reversals unrelated to accurate verdicts,
undermining the deterrent effect of the criminal law.
Ferrell, 1995 OK CR 54, ¶¶ 6-7, 902 P.2d at 1114-15.
¶12 Just as Teague’s doctrine of non-retroactivity
“was an exercise of [the Supreme Court’s] power to
interpret the federal habeas statute,” Danforth v.
Minnesota, 552 U.S. 264, 278, 128 S.Ct. 1029, 169
L.Ed.2d 859 (2008), we have barred state postconviction relief on new procedural rules as part of our
independent authority to interpret the remedial scope
of state post-conviction statutes. Smith v. State, 1994
OK CR 46, ¶ 3, 878 P.2d 375, 377-78 (declining to apply
rule on flight instruction to conviction that was final
six years earlier); Thomas, 1994 OK CR 85, ¶ 13, 888
P.2d at 527 (declining to apply rule on filing bill of
particulars at arraignment to conviction that was final
when rule was announced).
¶13 Before and after McGirt, this Court has treated
Indian Country claims as presenting non-waivable
challenges to criminal subject matter jurisdiction.
Bosse v. State, 2021 OK CR 3, ¶¶ 20-21, 484 P.3d 286,
293-94; Magnan v. State, 2009 OK CR 16, ¶ 9, 207 P.3d
397, 402 (both characterizing claim as subject matter
jurisdictional challenge that may be raised at any
time). After McGirt was decided, relying on this theory
of non-waivability, this Court initially granted postconviction relief and vacated several capital murder
convictions, and at least one non-capital conviction
(Jimcy McGirt’s), that were final when McGirt was

7a
announced. 3
¶14 We acted in those post-conviction cases without
our attention ever having been drawn to the potential
non-retroactivity of McGirt in light of the Court of
Appeals’ opinion in United States v. Cuch, 79 F.3d 987
(10th Cir. 1996), cert. denied, 519 U.S. 963, 117 S.Ct.
384, 136 L.Ed.2d 301 (1996) and cases discussed
therein, which we find very persuasive in our analysis
of the state law question today. See also, e.g.,
Schlomann v. Moseley, 457 F.2d 1223, 1227, 1230
(10th Cir. 1972) (finding Supreme Court’s “newly
announced jurisdictional rule” restricting courtsmartial in O’Callahan v. Parker, 395 U.S. 258, 89 S.Ct.
1683, 23 L.Ed.2d 291 (1969) had made a “clear break
with the past;” retroactive application to void final
convictions was not compelled by jurisdictional nature
of O’Callahan, and O’Callahan would not be applied
retroactively to void court-martial conviction that was
final when O’Callahan was decided).
¶15 After careful examination of the reasoning in
Cuch, as well as the arguments of counsel and amici
curiae, we reaffirm our recognition of the Cherokee,
Choctaw, and Chickasaw Reservations4 in those
Bosse, supra; Cole v. State, 2021 OK CR 10, ––– P.3d ––––, 2021
WL 1727054; Ryder v. State, 2021 OK CR 11, 489 P.3d 528, Bench
v. State, 2021 OK CR 12, ––– P.3d ––––, 2021 WL 1836466. We
later stayed the mandate in these capital post-conviction cases
pending the State’s petition for certiorari to the Supreme Court.
We have also granted McGirt-based relief and vacated many
convictions in appeals pending on direct review. E.g., Hogner v.
State, 2021 OK CR 4, ––– P.3d ––––, 2021 WL 958412; Spears v.
State, 2021 OK CR 7, 485 P.3d 873; Sizemore v. State, supra.
4 We first recognized the Seminole Reservation in the postMcGirt direct appeal of Grayson v. State, 2021 OK CR 8, 485 P.3d
250, and have no occasion to revisit that decision today.
3

8a
earlier cases. However, exercising our independent
state law authority to interpret the remedial scope of
the state post-conviction statutes, we now hold that
McGirt and our post-McGirt decisions recognizing
these reservations shall not apply retroactively to void
a conviction that was final when McGirt was decided.
Any statements, holdings, or suggestions to the
contrary in our previous cases are hereby overruled.
¶16 In United States v. Cuch, supra, the Tenth
Circuit Court of Appeals held that the Supreme
Court’s Indian Country jurisdictional ruling in Hagen
v. Utah, 510 U.S. 399, 114 S.Ct. 958, 127 L.Ed.2d 252
(1994) was not retroactive to convictions already final
when Hagen was announced. In Hagen, the Supreme
Court held that certain lands recognized as Indian
Country by Ute Indian Tribe v. Utah, 773 F.2d 1087
(10th Cir.1985) (en banc) were not part of the Uintah
Reservation; and that Utah, rather than the federal
government, had subject matter jurisdiction over
crimes committed in the area. Cuch, 79 F.3d at 988.
¶17 Cuch and Appawoo, defendants who pled guilty
and were convicted of major crimes (sexual abuse and
second degree murder respectively) in the federal
courts of Utah, challenged their convictions in
collateral motions to vacate pursuant to 28 U.S.C.
§ 2255. They argued the subject matter jurisdiction
defect recognized in Hagen voided their federal
convictions. Cuch, 79 F.3d at 989-90. The federal
district court found Hagen was not retroactive to
collateral attacks on final convictions under section
2255. Id. at 990. The Tenth Circuit affirmed.
¶18 The Court of Appeals noted that the Supreme
Court had applied non-retroactivity principles to new
rules that alter subject matter jurisdiction. Id. at 990

9a
(citing Gosa v. Mayden, 413 U.S. 665, 93 S.Ct. 2926, 37
L.Ed.2d 873 (1973)) (refusing to apply new
jurisdictional limitation on military courts-martial
retroactively to void final convictions). The policy of
non-retroactivity was grounded in principles of finality
of judgments and fundamental fairness: Hagen had
been decided after the petitioners’ convictions were
final; it was not dictated by precedent; and the
accuracy of the underlying convictions weighed
against the disruption and costs of retroactivity. Id. at
991-92.
¶19 The Court of Appeals found non-retroactivity
of the Hagen ruling upheld the principle of finality and
foreclosed the harmful effects of retroactive
application, including
the prospect that the invalidation of a
final conviction could well mean that the
guilty will go unpunished due to the
impracticability of charging and retrying
the defendant after a long interval of
time.
Wholesale
invalidation
of
convictions rendered years ago could well
mean that convicted persons would be
freed without retrial, for witnesses no
longer may be readily available,
memories may have faded, records may
be incomplete or missing, and physical
evidence
may
have
disappeared.
Furthermore, retroactive application
would surely visit substantial injustice
and hardship upon those litigants who
relied upon jurisdiction in the federal
courts,
particularly
victims
and
witnesses who have relied on the

10a
judgments and the finality flowing
therefrom. Retroactivity would also be
unfair to law enforcement officials and
prosecutors, not to mention the members
of the public they represent, who relied in
good
faith
on
binding
federal
pronouncements
to
govern
their
prosecutorial decisions. Society must not
be made to tolerate a result of that kind
when there is no significant question
concerning the accuracy of the process by
which judgment was rendered.
79 F.3d at 991-92 (citing and quoting from Gosa, 413
U.S. at 685, 93 S.Ct. 2926, and Northern Pipeline
Construction Co. v. Marathon Pipe Line Co., 458 U.S.
50, 88, 102 S.Ct. 2858, 73 L.Ed.2d 598 (1982) (internal
citations, quotation marks, brackets, and ellipses
omitted)).
¶20 The Court of Appeals found that no questions
of innocence arose from the jurisdictional flaw in the
petitioners’ convictions. Their conduct was criminal
under both state and federal law. The question
resolved in Hagen was simply “where these Indian
defendants should have been tried for committing
major crimes.” 79 F.3d at 992 (emphasis in original).
The petitioners did not allege unfairness in the
processes by which they were found guilty. Id.
¶21 The Court of Appeals reasoned that a
jurisdictional ruling like Hagen raised no fundamental
questions about the basic truth-finding functions of
the courts that tried and sentenced the defendants. Id.
The legal processes resulting in those convictions had
“produced an accurate picture of the conduct
underlying the movants’ criminal charges and

11a
provided adequate procedural safeguards for the
accused.” Id.
¶22 The Court of Appeals also noted that the
chances of successful state prosecution were slim after
so many years. “The evidence is stale and the
witnesses are probably unavailable or their memories
have dimmed.” Id. at 993. The Court also considered
the “violent and abusive nature” of the underlying
convictions, and the burdens that immediate release of
these prisoners would have on victims, many of whom
were child victims of sexual abuse. Id.
¶23 The Court of Appeals distinguished two lines
of Supreme Court holdings that retroactively
invalidated final convictions. The first involved the
conclusion that a court lacked authority to convict or
punish a defendant in the first place. But in those
cases, the bar to prosecution arose from a
constitutional immunity against punishment for the
conduct in any court, or prohibited a trial altogether.
The defendants in Cuch could hardly claim immunity
for acts of sexual abuse and murder. The only issue
touched by Hagen was the federal court’s exercise of
jurisdiction. Id. at 993.
¶24 The second line of Supreme Court cases
retroactively invalidating final convictions involved
holdings that narrowed the scope of a penal statute
defining elements of an offense, and thus invalidated
convictions for acts that Congress had never
criminalized. Hagen, on the other hand, had not
narrowed the scope of liability for conduct under a
statute, it had modified the extent of Indian Country
jurisdiction, and thus altered the forum where crimes
would be prosecuted. Id. at 994.

12a
¶25 Finding neither of the exceptional
circumstances that might warrant retroactive
application of Hagen’s jurisdictional ruling to final
convictions, the Court of Appeals found “the
circumstances surrounding these cases make
prospective application of Hagen unquestionably
appropriate in the present context.” Id. Prior federal
jurisdiction was well-established before Hagen; the
convictions were factually accurate; the procedural
safeguards and truth-finding functions of the courts
were not impaired; and retroactive application would
compromise both reliance and public safety interests
that legitimately attached to prior proceedings.
¶26 We find Cuch’s analysis and authorities
persuasive as we consider the independent state law
question of collateral non-retroactivity for McGirt.
First, we conclude that McGirt announced a rule of
criminal procedure, using prior case law, treaties, Acts
of Congress, and the Major Crimes Act to recognize a
long dormant (or many thought, non-existent) federal
jurisdiction over major crimes committed by or against
Indians in the Muscogee (Creek) Reservation. And like
Hagen before it, “the [McGirt] decision effectively
overruled the contrary conclusion reached in [the
Murphy] case,5 redefined the [Muscogee (Creek)]
Reservation boundaries ... and conclusively settled the
question.” Cuch, 79 F.3d at 989.
¶27 McGirt did not “alter[ ] the range of conduct or
the class of persons that the law punishes” for
committing crimes. Schriro v. Summerlin, 542 U.S.
Murphy v. State, 2005 OK CR 25, 124 P.3d 1198 (denying postconviction relief on claim that Muscogee (Creek) Reservation was
Indian Country and jurisdiction of murder was federal under the
Major Crimes Act).
5

13a
348, 353, 124 S.Ct. 2519, 159 L.Ed.2d 442 (2004).
McGirt did not determine whether specific conduct is
criminal, or whether a punishment for a class of
persons is forbidden by their status. McGirt’s
recognition of an existing Muscogee (Creek)
Reservation effectively decided which sovereign must
prosecute major crimes committed by or against
Indians within its boundaries, crimes which
previously had been prosecuted in Oklahoma courts
for more than a century. But this significant change to
the extent of state and federal criminal jurisdiction
affected “only the manner of determining the
defendant’s culpability.” Schriro, 542 U.S. at 353, 124
S.Ct. 2519 (emphasis in original). For purposes of our
state law retroactivity analysis, McGirt’s holding
therefore imposed only procedural changes, and is
clearly a procedural ruling.
¶28 Second, the procedural rule announced in
McGirt was new.6 For purposes of retroactivity
McGirt’s recognition of the entire historic expanse of the
Muscogee (Creek) Nation as a reservation was undoubtedly new
in the temporal sense. We take it as now well-established that
“Oklahoma exercised jurisdiction over all of the lands of the
former Five [ ] Tribes based on longstanding caselaw from
statehood until the Tenth Circuit in Indian Country, U.S.A. v.
State of Oklahoma, 829 F.2d 967 (10th Cir.1987) found a small
tract of tribally-owned treaty land existed along the Arkansas
River in Tulsa County, Oklahoma.” Murphy v. Sirmons, 497 F.
Supp.2d 1257, 1288-89 (E.D. Okla. 2007). Until McGirt, this
Court, and Oklahoma law enforcement officials generally,
declined to recognize the historic boundaries of any Five Tribes
reservation, as such, as Indian Country. See, e.g., 11 Okla. Op.
Att’y. Gen. 345 (1979), available at 1979 WL 37653, at *8-9
(stating the Attorney General’s opinion that “there is no ‘Indian
country’ in said former ‘Indian Territory’ over which tribal and
thus federal jurisdiction exists”).

6

14a
analysis, a case announces a new rule when it breaks
new ground, imposes a new obligation on the state or
federal government, or in other words, the result was
not dictated by precedent when the defendant’s
conviction became final. Ferrell, 1995 OK CR 54, ¶ 7,
902 P.2d at 1114 (finding rule of inadmissibility of
certain evidence broke new ground and was not
dictated by precedent when defendant’s conviction
became final).
¶29 McGirt imposed new and different obligations
on the state and federal governments. Oklahoma’s new
obligations included the reversal on direct appeal of at
least some major crimes convictions prosecuted
(without jurisdictional objections at the time, and
apparently lawfully) in these newly recognized parts
of Indian Country; and to abstain from some future
arrests, investigations, and prosecutions for major
crimes there. The federal government, in turn, was
newly obligated under McGirt to accept its jurisdiction
over the apprehension and prosecution of major crimes
by or against Indians in a vastly expanded Indian
Country.
¶30 McGirt’s procedural rule also broke new legal
ground in the sense that it was not dictated by, and
indeed, arguably involved controversial innovations
upon, Supreme Court precedent. For today’s purposes,
the holding in McGirt was dictated by precedent only
if its essential conclusion, i.e., the continued existence
of the Muscogee (Creek) Reservation, was “apparent to
all reasonable jurists” when Mr. Parish’s conviction
became final in 2014. Lambrix v. Singletary, 520 U.S.
518, 527-28, 117 S.Ct. 1517, 137 L.Ed.2d 771 (1997).
¶31 In 2005, this Court had declined to recognize
the claimed Muscogee (Creek) Reservation, and thus

15a
denied the essential premise of the claim on its merits,
in Murphy v. State, 2005 OK CR 25, ¶¶ 50-52, 124 P.3d
at 1207-08. From then until the Tenth Circuit Court of
Appeals’ 2017 decision in Murphy v. Royal, 866 F.3d
1164 (10th Cir. 2017), no court that had addressed the
issue, including the federal district court that initially
denied Murphy’s habeas claim, had embraced the
possibility that the old boundaries of the Muscogee
(Creek) Nation remained a reservation.7
¶32 With no disrespect to the views that later
commanded a Supreme Court majority in McGirt, the
dissenting opinion of Chief Justice Roberts, joined by
Justices Alito, Kavanaugh, and Thomas, whom we
take to be “reasonable jurists” in the required sense,
certainly did not view the holding in McGirt as
dictated by precedent even in 2020, much less in 2014.8
McGirt, 140 S.Ct. at 2497 (Roberts, C.J., dissenting). In Murphy
v. Sirmons, 497 F.Supp.2d 1257, 1289-90 (E.D. Okla. 2007), the
federal habeas court held thus:
While the historical boundaries of once tribally owned
land within Oklahoma may still be determinable today,
there is no question, based on the history of the Creek
Nation, that Indian reservations do not exist in
Oklahoma. State laws have applied over the lands within
the historical boundaries of the Creek nation for over a
hundred years.
The federal district court found “no doubt the historic territory of
the Creek Nation was disestablished as a part of the allotment
process.” Id., at 1290. The court concluded that our 2005 decision
“refusing to find the crime occurred on an Indian ‘reservation’
[was] not ‘contrary to nor an unreasonable application of Federal
law as determined by the United States Supreme Court.’ “ Id.
8 The mere existence of a dissent does not establish that a rule is
new, but a 5-4 split among Justices on whether precedent dictated
a holding is strong evidence of a novel departure from precedent.
Beard, 542 U.S. at 414-15, 124 S.Ct. 2504 (finding that the four
dissents in Mills v. Maryland [486 U.S. 367, 108 S.Ct. 1860, 100
7

16a
Chief Justice Roberts’s dissent raised a host of
reasonable doubts about the majority’s adherence to
precedent,9 arguing at length that it had divined the
existence of a reservation only by departing from the
governing standards for proof of Congress’s intent to
disestablish one, McGirt, 140 S.Ct. at 2489; and in
many other ways besides,10 “disregarding the ‘well
settled’ approach required by our precedents.” Id. at
2482 (Roberts, C.J., dissenting). The McGirt majority,
of course, remains just that, but the Chief Justice’s
reasoned, precedent-based objections are additional
proof that McGirt’s holding was not “apparent to all
reasonable jurists” when Mr. Parish’s conviction
became final in 2014.
¶33 Third, our independent exercise of authority to
impose remedial constraints under state law on the
collateral impact of McGirt and post-McGirt litigation
is consistent with both the text of the opinion and the
Supreme Court’s apparent intent. As already
demonstrated, McGirt is neither a substantive rule nor
a watershed rule of criminal procedure. The Supreme
Court itself has not declared that McGirt is retroactive
to convictions already final when the ruling was
announced.
¶34 McGirt was never intended to annul decades of
L.Ed.2d 384 (1988)] strongly indicated that the rule announced
was not dictated by Lockett v. Ohio [438 U.S. 586, 98 S.Ct. 2954,
57 L.Ed.2d 973 (1978)]).
9 Principally Solem v. Bartlett, 465 U.S. 463, 104 S.Ct. 1161, 79
L.Ed.2d 443 (1984), South Dakota v. Yankton Sioux Tribe, 522
U.S. 329, 118 S.Ct. 789, 139 L.Ed.2d 773 (1998), and Nebraska v.
Parker, 577 U.S. 481, 136 S.Ct. 1072, 194 L.Ed.2d 152 (2016).
10 See generally, McGirt, 140 S.Ct. at 2485-2489 (Roberts, C.J.,
dissenting).

17a
final convictions for crimes that might never be
prosecuted in federal court; to free scores of convicted
prisoners before their sentences were served; or to
allow major crimes committed by, or against, Indians
to go unpunished. The Supreme Court’s intent, as we
understand it, was to fairly and conclusively
determine the claimed existence and geographic
extent of the reservation.
¶35 The Supreme Court predicted that McGirt’s
disruptive potential to unsettle convictions ultimately
would be limited by “other legal doctrines—procedural
bars, res judicata, statutes of repose, and laches, to
name a few,” designed to “protect those who have
reasonably labored under a mistaken understanding
of the law.” McGirt, 140 S.Ct. at 2481. The Court also
well understood that collateral attacks on final state
convictions based on McGirt would encounter “wellknown state and federal limitations on post-conviction
review in criminal proceedings.” Id. at 2479.
“[P]recisely because those doctrines exist,” the Court
said, it felt “free” to announce a momentous holding
effectively recognizing a new jurisdiction and
supplanting a longstanding previous one, “leaving
questions about reliance interests for later
proceedings crafted to account for them.” Id. at 2481
(brackets and ellipses omitted).
¶36 Those questions are now properly before us
and urgently demand our attention. Because McGirt’s
new jurisdictional holding was a clear break with the
past, we have applied McGirt to reverse several
convictions for major crimes pending on direct review,
and not yet final, when McGirt was announced. The
balance of competing interests is very different in a
final conviction, and the reasons for non-retroactivity

18a
of a new jurisdictional rule apply with particular force.
Non-retroactivity of McGirt in state post-conviction
proceedings can mitigate some of the negative
consequences so aptly described in Cuch, striking a
proper balance between the public safety, finality, and
reliance interests in settled convictions against the
competing interests of those tried and sentenced under
the prior jurisdictional rule.
¶37 The State’s reliance and public safety interests
in the results of a guilty plea or trial on the merits, and
appellate review according to then-existing rules, are
always substantial. Though Oklahoma’s jurisdiction
over major crimes in the newly recognized
reservations was limited in McGirt and our postMcGirt reservation rulings, the State’s jurisdiction
was hardly open to doubt for over a century and often
went wholly unchallenged, as it did at Mr. Parish’s
trial in 2012.
¶38 We cannot and will not ignore the disruptive
and costly consequences that retroactive application of
McGirt would now have: the shattered expectations of
so many crime victims that the ordeal of prosecution
would assure punishment of the offender; the trauma,
expense, and uncertainty awaiting victims and
witnesses in federal re-trials; the outright release of
many major crime offenders due to the
impracticability of new prosecutions; and the
incalculable loss to agencies and officers who have
reasonably labored for decades to apprehend,
prosecute, defend, and punish those convicted of major
crimes; all owing to a longstanding and widespread,
but ultimately mistaken, understanding of law.
¶39 By comparison, Mr. Parish’s legitimate
interests in post-conviction relief for this jurisdictional

19a
error are minimal or non-existent. McGirt raises no
serious questions about the truth-finding function of
the state courts that tried Mr. Parish and so many
others in latent contravention of the Major Crimes Act.
The state court’s faulty jurisdiction (unnoticed until
many years later) did not affect the procedural
protections Mr. Parish was afforded at trial. The trial
produced an accurate picture of his criminal conduct;
the conviction was affirmed on direct review; and the
proceedings did not result in the wrongful conviction
or punishment of an innocent person. A reversal of Mr.
Parish’s final conviction now undoubtedly would be a
monumental victory for him, but it would not be
justice.
¶40 Because we hold that McGirt and our postMcGirt reservation rulings shall not apply
retroactively to void a final state conviction, the order
vacating Mr. Parish’s murder conviction was
unauthorized by state law. The State ordinarily may
file a regular appeal from an adverse post-conviction
order, but here, it promptly petitioned this Court for
extraordinary relief and obtained a stay of
proceedings. The time for filing a regular postconviction appeal (twenty days from the challenged
order) has since expired. Rule 5.2(C), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch. 18,
App. (2021).
¶41 The petitioner for a writ of prohibition must
establish that a judicial officer has, or is about to,
exercise unauthorized judicial power, causing injury
for which there is no adequate remedy. Rule 10.6(A),
Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch.18, App. (2021). There being no adequate
remedy by appeal, the injury caused by the

20a
unauthorized dismissal of this final conviction justifies
the exercise of extraordinary jurisdiction. The writ of
prohibition is GRANTED. The order granting postconviction relief is REVERSED.
ROWLAND, P.J.: CONCURS
HUDSON, V.P.J.: SPECIALLY CONCURS
LUMPKIN, J.: SPECIALLY CONCURS
HUDSON,
VICE
SPECIALLY CONCUR:

PRESIDING

JUDGE,

¶1 I commend Judge Lewis for his thorough
discussion of the retroactivity principles governing
this case. I write separately to summarize my
understanding of today’s holding. Today’s ruling holds
that McGirt v. Oklahoma, ––– U.S. ––––, 140 S. Ct.
2452, 207 L.Ed.2d 985 (2020) does not apply
retroactively on collateral review to convictions that
were final before McGirt. We apply on state law
grounds the retroactivity principles from Teague v.
Lane, 489 U.S. 288, 109 S.Ct. 1060, 103 L.Ed.2d 334
(1989) in reaching this conclusion because the United
States Supreme Court has not previously ruled on the
retroactivity of McGirt. We hold that McGirt is a new
rule of criminal procedure not dictated by precedent,
that represents a clear break with past law and that
imposes a new obligation on the State. The Supreme
Court recently acknowledged there is no longer an
exception in its Teague jurisprudence for watershed
procedural rules to be applied retroactively and we
incorporate this ruling in today’s decision. See
Edwards v. Vannoy, ––– U.S. ––––, 141 S. Ct. 1547,
1561, 209 L.Ed.2d 651 (2021). Today’s decision is also
based on United States v. Cuch, 79 F.3d 987 (10th Cir.
1996) which addressed a similar situation. We

21a
overrule our previous decisions in which we have
applied McGirt on post-conviction review. Today’s
decision, however, reaffirms our previous recognition
of the existence of the various reservations in those
cases.
¶2 Based on this understanding of our holding, I
fully concur in today’s decision. While this decision
resolves one aspect of the post-McGirt jurisdictional
puzzle, many challenges remain for which there are no
easy answers. So far, Congress has missed the
opportunity to implement a practical solution which,
at this point, seems unlikely. It is now up to the
leaders of the State of Oklahoma, the Tribes and the
federal government to address the jurisdictional
fallout from the McGirt decision. Only in this way,
with all of these parties working together, can public
safety be ensured across jurisdictional boundaries in
the historic reservation lands of eastern Oklahoma. It
will require this type of cooperation in the post-McGirt
world to ensure that stability is restored to
Oklahoma’s criminal justice system.
LUMPKIN, JUDGE, SPECIALLY
CONCURRING:
¶1 I compliment my colleague on a well-researched
opinion which accurately sets out the decisions of the
U.S. Supreme Court and the Tenth Circuit Court of
Appeals regarding giving retroactive effect to Supreme
Court decisions. I especially compliment him for
recognizing the scholarly analysis of Chief Justice
Roberts in the McGirt dissent which shows by
established precedent that the McGirt majority was
not fully analyzing and applying past precedent of the
Court in its decision.

22a
¶2 I join this opinion based on the precedent set by
the United States Supreme Court and the Tenth
Circuit Court of Appeals. In doing so I cannot divert
from basic principles of stating the obvious. In
recognizing that the federal precedents set forth in the
opinion and this writing are binding on this Court, I
cannot overlook the legal fact that each of them
applied a policy relating to collateral attacks on
judgments rendered by courts lacking jurisdiction to
render those judgments. When those courts found the
lower courts rendering the subject judgments had no
jurisdiction to render them, the result of this finding
should have been to render the judgments void. Rather
than declaring those judgments void, the courts
instead formulated a policy limiting the retroactive
application of their decisions, thereby preserving from
collateral attack final judgments preceding them.
¶3 Keeping the policy decisions reflected in those
opinions in mind, I do diverge from the court in
labeling the McGirt ruling as procedural. When the
federal government pre-empts a field of law, the legal
effect is to deprive states of their jurisdiction in that
area of the law. If a court lacks jurisdiction to act then
any rulings and judgments would appear to be void
when rendered.1 As the opinion notes, this Court since
I realize courts in the past have engaged in legal gymnastics to
keep from voiding judgments rendered by a court without
jurisdiction by finding that a court’s judgment must be void on its
face before it can be held void. Springer v. Townsend, 336 F.2d
397, 401 (10th Cir. 1964) (in deciding whether a probate decree
was void, the Court stated “our scope of review is limited to
determining whether a lack of jurisdiction in the approval
proceeding affirmatively appears from the record.”; “[a] judgment
will not be held to be void on its face unless an inspection will
affirmatively disclose that the court had no jurisdiction of the

1

23a
statehood has recognized and honored federal
jurisdiction as to Indian allotments and dependent
Indian communities. Those areas are subject to federal
jurisdiction and that jurisdiction is recognized by the
federal government, the tribes and the State of
Oklahoma. There was no question Oklahoma had
jurisdiction over the rest of the state and this Court,
as the court with exclusive jurisdiction in criminal
cases, faithfully honored those jurisdictional claims.
¶4 Regardless, a 5-4 majority of the Supreme Court
disregarded the precedent set out by Chief Justice
Roberts in his dissent to McGirt, and for the first time
in legal history determined the existence of a
reservation in Oklahoma based on “magic words”
rather than historical context.2 In doing so, the
person, no jurisdiction of the subject matter, or had no judicial
power to render the particular judgment.” Clay v. Sun River
Mining Co., 302 F.2d 599, 601 (10th Cir. 1962); “[a]s long as the
supporting record does not reflect the district court’s lack of
authority, the district court order cannot be declared “void.” Such
an order is instead only “voidable.” Bumpus v. State, 1996 OK CR
52, ¶ 7, 925 P.2d 1208, 1210; “[t]his Court has held in numerous
cases that in order for a judgment to be void as provided in the
Statute just quoted, it must be void on the face of the record, and
that extrinsic evidence is not admissible to show judgment is void
on the face of the record.” Scoufos v. Fuller, 1954 OK 363, 280
P.2d 720, 723. However, logic and common sense dictate that if a
court had no authority to act then any actions would be a nullity.
Regardless, I apply the precedent cited in the opinion and
specially concur.
2 In Solem v. Bartlett, 465 U.S. 463, 104 S.Ct. 1161, 79 L.Ed.2d
443 (1984), the Court enunciated several factors which must be
considered in determining whether a reservation has been
disestablished. Those factors are: the explicit language of
Congress evincing intent to change boundaries; events
surrounding the passage of surplus land acts which “reveal a
widely-held, contemporaneous understanding that the affected

24a
majority in McGirt declared this reservation has
always been in existence, even after Oklahoma became
a state. This operative wording in the opinion creates
a legal conundrum in that McGirt states that legally
Oklahoma never had jurisdiction on this newly
identified Indian reservation. This holding creates a
question as to every criminal judgment entered by a
state court regarding its validity. If all courts involved
in this issue held themselves to the legal effect of this
holding then those judgments would be void.
¶5 However both the Supreme Court and the Tenth
Circuit have shown us by their precedents that courts
have an option other than the legal one in cases of this
type and that is the application of legal policy. As set
out in the opinion, each of those courts has applied
policy regarding retroactive application of cases based
on the chaos, confusion, harm to victims, etc., if
retroactive application occurred. The McGirt decision
is the Hagen v. Utah, 510 U.S. 399, 114 S.Ct. 958, 127
L.Ed.2d 252 (1994), decision in reverse. In upholding
the state court conviction, the Court held in Hagen
that Congress had disestablished the Uintah
reservation; therefore, the federal district court did not
have jurisdiction to decide the subject case. In a later
case involving the same land area, United States v.
Cuch, 79 F.3d 987 (10th Cir. 1996), the Tenth Circuit
found that although the federal district court lacked
jurisdiction to try the subject cases, there was no need
to vacate the judgments for lack of jurisdiction because
of the harm it would cause and because those
reservation would shrink as a result of the proposed legislation
...”; Congress’s subsequent treatment of the subject areas;
identity of who moved onto the affected land; and the subsequent
demographic history of those lands. Id. at 470-72, 104 S.Ct. 1161.

25a
defendants were given a fair trial and made no
complaints regarding the fairness. Thus the court
applied policy rather than the law which would have
rendered the judgments void due to lack of subject
matter jurisdiction.
¶6 The legal effect of the McGirt decision, finding
Oklahoma lacked jurisdiction to try cases by or against
Indians in Indian Country due to federal preemption
through the Major Crimes Act, would be to declare the
associated judgments void. However, we now adopt the
federal policy and established precedent of selective
retroactive application in these type of cases due to the
ramifications retroactive application would have on
the criminal justice system and victims. This is hard
to explain in an objective legal context but provides a
just and pragmatic resolution to the McGirt dilemma.

26a
APPENDIX B
Court of Criminal Appeals of Oklahoma.
STATE EX REL. Mark MATLOFF,
District Attorney, Petitioner
v.
The Honorable Jana WALLACE
District Judge, Respondent.
Decided: 05/21/2021
ORDER GRANTING STAY OF PROCEEDINGS
AND DIRECTING SUPPLEMENTAL BRIEFS
¶1 The State of Oklahoma, by Mark Matloff,
District Attorney of Pushmataha County, petitions
this Court for the writ of prohibition against
enforcement of Judge Jana Wallace’s April 13, 2021
order granting post-conviction relief, vacating and
dismissing the second degree murder conviction of
Clifton Merrill Parish in Pushmataha County Case
No. CF-2010-26.
¶2 Parish was tried by jury and found guilty of
second degree felony murder in March, 2012. The jury
sentenced him to twenty-five years imprisonment.
This Court affirmed the conviction on direct appeal in
Parish v. State, No. F-2012-335 (Okl.Cr., March 6,
2014)(unpublished). Parish did not petition for
rehearing, and apparently did not petition the United
States Supreme Court for a writ of certiorari within
the allowed ninety-day time period. On or about June
4, 2014, Parish’s conviction became final.1
Walker v. State, 1997 OK CR 3, ¶ 3 n.7, 933 P.2d 327, 330 n.7
(citing Teague v. Lane, 489 U.S. 288, 295, 109 S.Ct. 1060, 103
L.Ed.2d 334 (1989))(defining a final conviction as one where
1

27a
¶3 In August, 2020, Parish sought post-conviction
relief, alleging that the State of Oklahoma lacked
subject matter jurisdiction to try him for murder under
the Supreme Court’s decision in McGirt v. Oklahoma,
––– U.S. ––––, 140 S.Ct. 2452, 207 L.Ed.2d 985 (2020).
Judge Wallace held a hearing and found that Parish
was an Indian and committed his crime within the
Choctaw Reservation, the continued existence of
which was recently recognized by this Court, applying
McGirt, in Sizemore v. State, 2021 OK CR 6, ¶ 16, –––
P.3d ––––, ––––.
¶4 Because the Choctaw Reservation is Indian
Country, Judge Wallace found that the State lacked
subject matter jurisdiction to try Parish for murder
under the Major Crimes Act, 18 U.S.C. § 1153.
Applying the familiar rule that defects in subject
matter jurisdiction can never be waived, and can be
raised at any time, Judge Wallace held that Parish’s
conviction for second degree murder was void and
ordered the charge dismissed.
¶5 Judge Wallace initially stayed enforcement of
the order until April 21, 2021, then effectively
extended the stay by setting the matter for status
conference on June 10, 2021. Petitioner Matloff filed in
this Court a verified request for a stay of all trial court
proceedings, which is hereby GRANTED. Pursuant to
Rules 10.1(C)(2), (3), and (4), and 10.5(5), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch. 18,
App. (2021), Petitioner Matloff is hereby directed to
file with the Clerk of this Court a certified copy of the
original record containing the documents previously
judgment was rendered, the availability of appeal exhausted, and
the time to petition for certiorari had elapsed).

28a
designated, with an original or certified copy of the
transcript of proceedings, if any.
¶6 Petitioner Mark Matloff and Attorney Debra K.
Hampton, post-conviction counsel for party-in-interest
Clifton Parish, are hereby directed within twenty days
of this order to submit briefs of not more than twenty
pages, addressing the following question:
In light of Ferrell v. State, 1995 OK CR
54, 902 P.2d 1113, United States v. Cuch,
79 F.3d 987 (10th Cir. 1996), Edwards v.
Vannoy (No. 19--5807), 593 U.S. ––––
(May 17, 2021), cases cited therein, and
related authorities, should the recent
judicial recognition of federal criminal
jurisdiction in the Creek and Choctaw
Reservations announced in McGirt and
Sizemore be applied retroactively to void
a state conviction that was final when
McGirt and Sizemore were announced?
¶7 Representatives of the Attorney General of
Oklahoma and the Choctaw Nation are also invited to
enter appearances and file briefs according to these
guidelines. The Clerk is directed to immediately
forward copies of this order to the following parties and
counsel:
The Honorable Jana
Wallace Associate
District Judge 302 S.W.
B Antlers, OK 74523
Clifton Parish #473315
Mack Alford CC P.O.
Box 220 Stringtown, OK
74569

Debra K. Hampton
Attorney at Law 3126 S.
Blvd. #304 Edmond, OK
73103
Mike Hunter Attorney
General 313 N.E. 21st
St. Oklahoma, OK 73105

29a
Mark Matloff District
Attorney 204 S.W. 4th
St. #6 Antlers,
Oklahoma 74523

Jacob Keyes Choctaw
Nation P.O. Box 1210
Durant, OK 74702

¶8 IT IS SO ORDERED.
/s/ DANA KUEHN, Presiding Judge
/s/ SCOTT ROWLAND, Vice Presiding Judge
/s/ GARY L. LUMPKIN, Judge
/s/ DAVID B. LEWIS, Judge
/s/ ROBERT L. HUDSON, Judge

30a
APPENDIX C
IN THE DISTRICT COURT OF THE
SEVENTEENTH JUDICIAL DISTRICT
SITTING IN AND FOR PUSHMATAHA COUNTY,
OKLAHOMA
STATE OF OKLAHOMA,
Plaintiff,
VS.
CLIFTON PARISH,
Defendant.

)
)
)
)
)

FILED APRIL 13,
2021

This matter came before the Court today on the
Defendant’s Application for Post Conviction relief,
alleging he is a member of the Choctaw Nation and the
crimes occurred within the historical boundaries of the
Choctaw Nation reservation (Indian Country). If these
two conditions are met the United States Supreme
Court has held, this Court has no jurisdiction.
In the above entitled and numbered case an
evidentiary was hearing was set, at which time, it was
determined Clifton Parish is a member of a federally
recognized American Indian tribe, he has some degree
of Indian blood as evidenced by a CDIB card, a
Choctaw Nation Tribal membership card and a letter
from the Choctaw Nation, copies of which were filed by
the defendant.
The District Attorney’s office stipulates to the fact
the events complained of in the charge occurred within
the historical boundaries of the Choctaw Nation
reservation.
Therefore, pursuant to an order by the Supreme
Court of the United States of America, the state of

31a
Oklahoma has no jurisdiction in this matter, the
jurisdiction lies solely with the federal or tribal
governments, the Application for Post Conviction
relief is granted and the case is dismissed without cost.
This order shall be stayed until April 21, 2021, due to
the Oklahoma Court of Criminal Appeals did not make
their mandate effective for 20 days from the date of the
order. COURT CLERK TO MAIL COPIES TO THE
ATTORNEYS OF RECORD AND ATTACH A
CERTIFICATE OF MAILING HERETO. SO
ORDERED THIS 7TH DAY OF APRIL 2021.
/s/ Jana Wallace
HONORABLE JANA WALLACE

32a
CERTIFICATE OF MAILING
I, Casey Ranallo, Deputy Clerk, do certify that I did
mail a copy of the foregoing instrument to:
DISTRICT ATTORNEY- ANTLERS
DEBRA HAMPTON
HAMPTON LAW
3126 S BLVD # 304
EDMOND, OK 73013
CLIFTON PARISH/ DOC # 473315
MACK ALFORD CORRECTIONAL CENTER
P.O. BOX 220 STRINTOWN, OK 74569
/s/
Deputy Clerk

33a
APPENDIX D
IN THE DISTRICT COURT OF THE
SEVENTEENTH JUDICIAL DISTRICT
SITTING IN AND FOR PUSHMATAHA COUNTY,
OKLAHOMA
STATE OF OKLAHOMA,
Plaintiff,
VS.
CLIFTON PARISH,
Defendant.

)
)
)
)
)
)
)

CF-2010-25

FINDINGS OF FACTS AND CONCLUSIONS OF
LAW
Now on this 7th day of April 2021, the Defendant’s
Application for Post Conviction Relief came before the
Court. The Defendant, defendant counsel and the
State were excused from appearing before the Court.
The defendant filed his motion on August 17, 2020,
and was set for status/hearing on this date due to the
Court waiting on the Court of Criminal Appeals
decisions regarding the Choctaw Nation. The State did
not file an objection and/or answer to the application.
Based on the facts presented to this Court in the
defendant’s Application and the stipulations by both
parties, the Court finds as follows.
FINDING OF FACTS
1. The defendant was convicted of Murder in the
Second Degree under 21 O.S. § 701.8 on April 12,
2012.
2. Defendant filed an Application for Post Conviction

34a
Relief on August 17, 2020, the matter was not set
until October 21, 2020, in order to give the State
ample time to file an answer or objection. The
matter was continued to November 18, 2020, and
then to January 2021, at which time is was
continued to April 7, 2021, waiting on the Court of
Criminal Appeals case regarding the Choctaw
Nation reservation.
3. The State and defendant stipulated to two facts;
1) the defendant has a degree of Indian blood and
he is an enrolled member of the Choctaw Nation;
2) the crime happened within the historical
boundaries of the Choctaw Nation.
4. The Indian Removal Act of 1830 authorized the
President’s representative to negotiate with the
Choctaw Nation. The negotiations lead to an
agreement for the Choctaw Nation to move west of
the Mississippi River in a land exchange with the
federal government. The government was to
receive the ancestral land and the Choctaw Nation
would move to the land reserved for them west of
the Mississippi. Indian Removal Act of 1830.
5. The 1830 Treaty of Dancing Rabbit Creek granted
to the Choctaw Nation certain lands “in fee simple
to them and their descendants, to insure to them
while they shall exist as a nation and live on it”, in
exchange for the Nation ceding their lands east of
the Mississippi. Article IV granted the Nation, “the
jurisdiction and government of all the persons and
property that may be within their limits west, so
that no territory or State shall ever have a right to
pass laws for the government of the Choctaw
Nation of Red People and their descendants; and
that no part of the land granted them shall ever be

35a
embraced in any territory or State.” The
boundaries of the land reserved for the Nation was
described as; “Beginning at a point on the Arkansas
River, one hundred paces east of old Fort Smith,
where the western boundary-line of the State of
Arkansas crosses the said river, and running
thence due south to Red River; thence up Red River
to the point where the meridian of one hundred
degrees west longitude crosses the same; thence
north along said meridian to the main Canadian
River; thence down said river to its junction with
the Arkansas River; thence down said river to the
place of beginning.” 1830 Treaty of Dancing Rabbit
Creek, Sept. 27, 1830, 7 Stat. 333.
6. In 1837 Treaty of Doaksville entered between the
Choctaws and Chickasaws made the provision of
the 1830 Treaty of Dancing Rabbit applicable to the
Chickasaw Nation and granted the Chickasaw
Nation a district within the Choctaw Nation
territory. 1837 Treaty of Doaksville, Jan. 17, 1837,
11 Stat. 573.
6. In 1855, Treaty of Washington modified the
western boundary of the Chickasaw territory, but
reaffirmed the 1830 and 1837 Treaties by explicitly
asserting, “pursuant to the Indian Removal Act,
the United States does hereby forever secure and
guarantee the lands embraced within the said
limits, to the members of the Choctaw and
Chickasaw tribes,” reserving the land from sale,
“without the consent of both tribes” and reaffirming
the right to self-govern. 1855 Treaty of Washington
with the Choctaw and Chickasaw, June 22 1855, 11
Stat. 611.
7. In 1866 the Choctaw Nation entered into a Treaty

36a
which merely reaffirmed the Nation’s right to selfgovern, and confirmed the previous Treaties
provisions, as well as once again reiterated peace
with the United States after the Civil War. The
Choctaw and Chickasaw Nations ceded the land
west of the 98 degrees west longitude formerly
known as the leased district to the Federal
Government at this time for payment as set forth
in the Treaty. 1866 Treaty of Washington with the
Chickasaw and Choctaw, Apr. 28 1866, 14 Stat.
769.
8. The Choctaw Nation is a federally recognized
Indian Tribe that exercises sovereign authority
under a constitution approved by the Secretary of
Interior. Choctaw Nation Constitution. The Nation
has established and maintained a Court system,
which both the Nation and the State of Oklahoma
giving full faith and credit to each other’s court
judgments, in much the same way as any other
State in the Union. Barrett v. Barrett, 878 P.2d
1051, 1054 (Okla. 1994); Full Faith and Credit of
Tribal Courts, Okla. State Cts. Network (April 18,
2019),
Https://www.osen.net/applications/osen/DeliverDo
cument.asp?CiteID=458214.
9. No evidence was presented to this Court from the
State and/or the Defendant that the treaties
referenced above have ever been nullified or
modified, nor was any evidence presented that the
Federal Government has ever disestablished or
diminished the lands reserved to the Choctaw
Nation, with the exception of the 1866 treaty,
which sold the west land.

37a
CONCLUSIONS OF LAW
The Supreme Court found in McGirt congress did
not specifically disestablish the Creek Nation
reservation in eastern Oklahoma, therefore the land is
still a reservation. The Oklahoma Court of Criminal
Appeals has now found that the Choctaw Nation
reservation has never been disestablished, therefore
the land is still is still a reservation. If the land is still
a reservation the Major Crimes Act (MCA) applies.
The MCA requires any Indian who commits certain
enumerated crimes in Indian country against another
Indian or any other person is subject to the exclusive
jurisdiction of the United States. 18 U.S.C. §§ 11511153. In the case at bar the State and defendant
stipulated to the defendant’s heritage (degree of
Indian blood), as well as his Tribal membership in the
Choctaw Nation. In addition, the parties stipulated to
the fact the crime occurred within the historical
boundaries of the Choctaw Nation. The State did not
provide any evidence concerning the disestablishment
of the Choctaw Nation reservation.
Congress established the Choctaw reservation by
treaty in 1830 when it set aside land for the Choctaw
Nation west of the Mississippi, in fee simple in
exchange for the land the Tribe occupied east of the
Mississippi. Article II of the 1830 treaty provides;
The United States under a grant
specially to be made by the President of
the U.S. shall cause to be conveyed to the
Choctaw Nation a tract of country west of
the Mississippi River, in fee simple to
them and their descendants, to insure to
them while they shall exist as a nation
and live on it, beginning near Fort Smith

38a
where the Arkansas boundary crosses the
Arkansas River running thence to the
source of the Canadian for; if in the limits
of the United States, or to those limits;
thence due south to Red River, and down
Red River to the West boundary of the
same.
The boundaries of the land reserved for the
Choctaw Nation was specifically set out in the treaty
and was set aside for the Tribe, “as long they exist as
a nation and live on it.” Article II of 1830 Treaty.
The McGirt Court explained, the Indian Removal
Act authorized the President’s representatives to
agree to such terms. In that Act Congress authorized
the President “to assure the tribe . . . that the United
States will forever secure and guaranty to them . . . the
country so exchanged with them.” Indian Removal Act
of 1830, § 3, 4 Stat. 412. “[A]nd if they prefer it, the
United States will cause a patent or grant to be made
and executed to them for the same; Provided always,
that such lands shall revert to the United States, if the
Indians become extinct, or abandon the same.” Id.
Article IV of the 1830 Treaty guaranteed the
Choctaw Nation “the jurisdiction and government of
all the persons and property that may be within their
limits west, so that no Territory or State shall ever
have a right to pass laws for the government of the
Choctaw Nation of Red People and their descendants;
and that no part of the land granted them shall ever
be embraced in any Territory or State.” Id. These
terms established the Choctaw Reservation, defined
it’s boundaries, and promised these lands to the
Choctaw for as long as “they shall exist as nation and
live on it.” 1830 Treaty Art. II.

39a
The Choctaw Nation parallels the analysis the
Court applied in McGirt. In the 1830 Treaty, the
government granted the land, “in fee simple to them
and their descendants, to insure to them while they
shall exist as a nation.” By the 1837 Treaty of
Doaksville, Jan. 17, 1837, 11 Stat. 573 (1837 Treaty),
the Chickasaw Nation was granted a “district within
the limits of [the Treaty Territory], on the following
terms: It is agreed by the Choctaws that the
Chickasaws shall have the privilege of forming a
district within the limits of their country, to be held on
the same terms that the Choctaws now hold it, except
the right of disposing of it, (which is held in common
with the Choctaws and Chickasaws,) to be called the
Chickasaw district of the Choctaw Nation.” 1837
Treaty art. I.
In 1842, the land was conveyed fee patented title to
the Treaty Territory to the Choctaw Nation (1842
Patent), reciting the terms of Article II of the 1830
Treaty in the patent and expressly reserving the
Treaty Territory from sale without their consent,
Fleming v. McCurtain, 215 U.S. 56, 58 (1909) (first
quoting 1830 Treaty art. II; and then quoting 1842
Patent).
In the 1855 Treaty, “the boundaries of the Choctaw
and Chickasaw country” were modified, and explicitly
set forth as modified, Congress promised that
“pursuant to an act of Congress approved May 28, 1830
[i.e., the Indian Removal Act], the United States do
hereby forever secure and guarantee the lands
embraced within the said limits, to the members of the
Choctaw and Chickasaw tribes,” and the Chickasaw
and Choctaw country was explicitly reserved from sale
“without the consent of both tribes.” Id art I. The 1855

40a
Treaty also reaffirmed the existence of the Chickasaw
district and modified its boundaries. Id. art. II. The
1855 Treaty further provided that “the remainder of
the country held in common by the Choctaws and
Chickasaws, shall constitute the Choctaw district.” Id.
art. V. The terms set out in the treaty reaffirmed the
existence of the Choctaw Reservation, modified and
explicitly restated its boundaries, and reaffirmed the
Choctaw’s rights of self-government.
The Choctaw Nation entered into the 1866 Treaty
following the Civil War. The 1866 Treaty ended any
remaining hostilities by providing that permanent
peace and friendship are hereby established between
the United States and said nations,” and promising
mutual amnesty. Id arts. I, V. The Nations also
“cede[d] to the United States the territory west of the
98 degrees west longitude, known as the leased
district,” for a sum certain of three hundred thousand
dollars, Id. art. III, which modified the western
boundary of the Choctaw Reservation. In addition, the
1866 Treaty reaffirmed the Chickasaw and Choctaw
Nations’ rights of self-government, Id. art. VII, and all
pre-existing Treaty rights of the Chickasaw and
Choctaw Nations not inconsistent with the 1866
Treaty. Id. arts. X, XLV.
Applying the same reasoning employed by the
McGirt Court, the Choctaw Nation’s Treaties
established the Choctaw Reservation: namely, by
setting aside land for the Choctaw to exist as a nation,
establishing its boundaries, providing for the land to
be granted in fee and promising freedom from state
interference and rights of self-government on the
Reservation. These terms established the Choctaw
Reservation and defined its boundaries, and as McGirt

41a
makes clear, it makes no difference that the Choctaw
Nation’s Treaties did not use the word “reservation” to
describe the Choctaw Reservation, as the Court “has
found similar language in treaties from the same era
sufficient to create a reservation.” Id. (citing
Menominee Tribe of Indians v. United States, 391 U.S.
404, 405 (1968) (grant of land “for a home, to be held
as Indian lands are held,” established a reservation)).
Indeed, in Atlantic & Pacific R. R. v. Mingus, the
Supreme Court determined that the Indian Territory
lands which had been granted to the Choctaw,
Cherokee, and Creek under their treaties “were
reserved lands, within the meaning of [the Act of July
27, 1866, ch. 278, § 2, 14 Stat. 292, 294 (“1866 Act” )],.
Atlantic & P.R. Co., 165 U.S. 413, 435 (1897) (quoting
1866 Act § 3). The Court concluded that the Indian
Territory “stands in an entirely different relation to
the United States from other territories, and that for
most purposes it is to be considered as an independent
country.” Id. at 435-36. In sum, Mingus confirms that
the Treaty Territory set aside under the 1830 Treaty
and modified by the 1855 and 1866 Treaties is an
Indian reservation under federal law. As the McGirt
Court held with respect to the Creek Reservation,
“under any definition, this was a reservation.” 140 S.
Ct. at 2462. In applying the McGirt decision to the
facts of this case, this Court must reach the same
conclusion concerning the Choctaw Nation as the
Court did for the Muskogee Creek Nation.
As the Supreme Court made clear in McGirt, to
determine whether a tribe continues to hold a
reservation, there is only one place we may look: the
Acts of Congress.” Id. While Congress’s “significant
constitutional authority” over tribal relations includes

42a
“the authority to breach its own promises and
treaties,” Id. (citing Lone Wolf y. Hitchcock, 187 U.S.
553, 566-68 (1903)), that authority “belongs to
Congress alone,” and the Supreme Court will not
“lightly infer such a breach once Congress has
established a reservation,” Id. (citing Solem v. Bartlett,
465 U.S. 463 at 470, (1984)).
McGirt also makes clear that “[U]nder our
Constitution, States have no authority to reduce
federal reservations lying within their borders,” Id. In
addition, Congress only disestablishes a Reservation
by enacting legislation that makes an “explicit
reference to cession’ or an ‘unconditional commitment
to compensate the Indian tribe for its opened land,’
(alteration in original) (quoting Solem, 465 U.S. at
470), or that “direct[s] that tribal lands shall be
‘restored to the public domain,’ Id. (quoting Hagen v.
Utah, 510 U.S. 399, 412 (1994)). “Likewise, Congress
might speak of a reservation as being ‘discontinued,’
abolished,’ or ‘vacated.’ Id. at 2463 (quoting Mattz v.
Arnett, 412 U.S. 481, 504 n.22 (1973)).
This standard establishes that Congress has not
extinguished the Choctaw Reservation, nor has
Congress altered the boundaries of the Reservation,
with the exception of the explicit modification set forth
in Article I of the 1855 Treaty, and the explicit cession
of land to the United States for a sum certain made by
Article III of the 1866 Treaty, which modified the
western boundary of the Reservation. It is clear from
these specific instances, when Congress wants to
diminish the land promised It knows how to
specifically so state. Thus the lack of any language is
further proof of Congress’ intent not to diminish or
disestablish the land reserved.

43a
The history of negotiations continued on into the
Allotment Era, however the Federal Government even
though it intruded on the Nation’s right of selfgovernment throughout the remainder of the
allotment and integration era, the intrusions never
eliminated all of the Nation’s interests in the Choctaw
lands. In McGirt the Court rejected the argument that
the intrusion into the Creek Nation’s treaty rights
eliminated the Creek lands. 140 S.Ct at 2466
In McGirt, the Court found that the Creek Nation
has chosen to exercise the power of self-government,
by, inter alia, ratifying a new constitution and
reestablishing the jurisdiction of its courts. Id. at 2467.
Today the Choctaw Nation exercises its sovereign
authority over the Choctaw Reservation under a
constitution approved by the Secretary of the Interior,
see Choctaw Const. art. XX, under which its
government is divided into Executive, Legislative, and
Judicial Departments, V, § 1, and the powers of each
Department are specifically defined, VI, VII
(Executive), VIII, IX (Legislative), XII, XIII (Judicial).
https://www.choctawnation.com/sites/default/files/
2020-02/FINAL%20Constitution_1983%20with%2
02020%20corrections%20and%20amendments%20%2
8v004%20PDF%29.pdf (last visited November 4, 2020)
Only Congress can erase the boundaries and
disestablish a reservation granted by it. 140 S.Ct.at
2467. There was no evidence presented to this Court
the Choctaw reservation was or has ever been,
“restored to public domain”, “discontinued, abolished
or vacated”. This Court finds Congress established a
reservation in Oklahoma for the Choctaw Nation,
those boundaries have never been erased, abolished or
disestablished. Therefore, the crime occurred in Indian

44a
Country as defined by 18 U.S.C. §1151 and falls under
the exclusive jurisdiction of the federal government as
set forth in §1153.
A Court has only the jurisdiction conferred to it by
law. Starr v. State, 115 P. 356, 357 (Okl.Cr.1911). The
power to hear a case is granted to the Court by statute
or constitution, which is subject matter jurisdiction.
United States v. Cotton, 535 U.S. 625, 630 (2002). If the
Court does not have subject matter jurisdiction the
defect can never be forfeited or waived and requires
correction no matter if it is raised in district court.
Louisville & Nashville R. Co. V. Mottley, 211 U.S. 149
(1908); United States v. Tony, 637 F.3d 1153, 1158
(10th Cir. 2011); Ex parte Merton, 205 P.2d 340, 341-42
(Okla.Crim. 1949). The Oklahoma Court of Criminal
Appeals stated in Armstrong, “Jurisdiction of the
subject matter cannot be conferred by consent, nor can
it be waived, and it may be raised at any time before
or after trial, and even for the first time in the
appellate court.” Armstrong v. State, 248 P. 877, 878
(Okl.Cr (1926). It is clear from the cases, subject
matter jurisdiction cannot be waived by the defendant.
In addition, if this Court has no jurisdiction the case
must be dismissed as the Court cannot act without the
authority granted to it by Law.
THEREFORE, based on the above, this Court does
not have subject matter jurisdiction of this particular
case. Since this Court does not have subject matter
jurisdiction the case must be dismissed. This order
was stayed until April 21, 2021. COURT CLERK TO
MAIL COPIES OF THIS FINDINGS OF FACTS AND
CONCLUSIONS OF LAW TO THE ATTORNEYS OF
RECORD AND ATTACH A CERTIFICATE OF
MAILING HERETO.

45a
SO ORDERED THIS 27TH DAY OF APRIL 2021.
/s/ Jana Wallace
HONORABLE JANA WALLACE

46a
APPENDIX E
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
STATE ex rel. MARK
MATLOFF, DISTRICT
ATTORNEY,
Petitioner,
v.
THE HONORABLE
JANA WALLACE,
ASSOCIATE DISTRICT
JUDGE,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

NOT FOR
PUBLICATION
Case No. PR-2021366

ORDER DENYING MOTION FOR REHEARING,
MOTION FOR RECONSIDERATION,
AND REQUEST FOR STAY OF THE MANDATE
On August 17, 2021, Clifton Merrill Parish, by
counsel Debra K. Hampton, tendered to the Clerk of
this Court for filing a Motion for Reconsideration and
Request for Stay of the Mandate from the Court’s
August 12, 2021 decision in State ex rel. Matloff v.
Wallace, 2021 OK CR 21, __ P.3d __. Mr. Parish, as a
real party in interest and post-conviction petitioner in
the above cause, petitions the Court for rehearing and
reconsideration on four specific grounds:
1. The Court should reconsider its determination
because the petitioner was collaterally estopped
from bringing a writ of prohibition because there
was an adequate remedy pursuant to post-

47a
conviction procedures act that was ignored by this
Court and not mentioned one time in the opinion;
2. This Court overlooked Mr. Parish’s arguments that
U.S. v. Johnson, 457 U.S. 537, 102 S.Ct. 2579, 73
L.Ed.2d 202 (1982) and clearly established law is
controlling to the issue of retroactivity of subject
matter jurisdiction claims;
3. This Court did not address the fact that a
conviction could not become final because the state
courts were not courts of competent jurisdiction;
4. Mr. Parish states this Court did not address
Oklahoma’s Enabling Act.
Due to the importance of the Matloff ruling to Mr.
Parish and others similarly situated, Petitioner’s
tendered motion for rehearing and reconsideration is
accepted for filing. The Clerk is hereby directed to file
this motion in the official records of this cause.
However, according to Rule 3.14(E), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch. 18,
App. (2021), a petition for rehearing shall be filed only
in regular appeals, as defined by Rule 1.2. Original
proceedings are not regular appeals. Rule 10.6(D)
further provides that a decision on an extraordinary
writ is a final order, for which “[a] petition for
rehearing is not allowed.”
Mr. Parish’s petition for rehearing is therefore
DENIED. After our review of the reasons offered in
Mr. Parish’s motion for this Court to reconsider our
ruling in State ex rel. Matloff v. Wallace,
reconsideration is also DENIED. Finally, the Court’s
procedure governing the issuance of a mandate
following a decision on appeal does not apply to
original proceedings. See Rule 3.15(A). Mr. Parish’s

48a
request for a “stay of the mandate” pending a petition
to the United States Supreme Court for a writ of
certiorari is therefore DENIED.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 31st day of August, 2021.
/s/ Scott Rowland
SCOTT ROWLAND, Presiding
Judge
/s/ Robert Hudson
ROBERT L. HUDSON, Vice
Presiding Judge
/s/ Gary Lumpkin
GARY L. LUMPKIN, Judge
/s/ David Lewis
DAVID B. LEWIS, Judge
ATTEST:
/s/ John D. Hadden
Clerk
ATTEST:
/s/ John D. Hadden
Clerk

49a
APPENDIX F
The Indian Commerce Clause provides:
The Congress shall have Power . . . To
regulate Commerce . . . with the Indian
Tribes.
The Supremacy Clause to the U.S. Constitution
provides:
This Constitution, and the laws of the
United States which shall be made in
pursuance thereof; and all treaties made,
or which shall be made, under the
authority of the United States, shall be
the supreme law of the land; and the
judges in every state shall be bound
thereby, anything in the Constitution or
laws of any State to the contrary
notwithstanding.
The Due Process Clause of the Fourteenth
Amendment to the U.S. Constitution provides:
No state shall . . . deprive any person of
life, liberty, or property, without due
process of law.
Section 1151 of Title 18 of the United States Code
provides:
Except as otherwise provided in sections
1154 and 1156 of this title, the term
“Indian country”, as used in this chapter,
means (a) all land within the limits of any
Indian reservation under the jurisdiction
of the United States Government,
notwithstanding the issuance of any

50a
patent, and, including rights-of-way
running through the reservation, (b) all
dependent Indian communities within
the borders of the United States whether
within the original or subsequently
acquired territory thereof, and whether
within or without the limits of a state,
and (c) all Indian allotments, the Indian
titles to which have not been
extinguished, including rights-of-way
running through the same.
Section 1152 of Title 18 of the United States Code
provides:
Except as otherwise expressly provided
by law, the general laws of the United
States as to the punishment of offenses
committed in any place within the sole
and exclusive jurisdiction of the United
States, except the District of Columbia,
shall extend to the Indian country.
Section 22-1080 of Title 22 of the Oklahoma Code
provides in relevant part:
Any person who has been convicted of, or
sentenced for, a crime and who claims:
(a) that the conviction or the sentence
was in violation of the Constitution of the
United States or the Constitution or laws
of this state;
(b) that the court was without
jurisdiction to impose sentence;
(c) that the sentence exceeds
maximum authorized by law;

the

51a
(d) that there exists evidence of material
facts, not previously presented and
heard, that requires vacation of the
conviction or sentence in the interest of
justice;
(e) that his sentence has expired, his
suspended sentence, probation, parole, or
conditional release unlawfully revoked,
or he is otherwise unlawfully held in
custody or other restraint; or
(f) that the conviction or sentence is
otherwise subject to collateral attack
upon any ground of alleged error
heretofore available under any common
law, statutory or other writ, motion,
petition, proceeding or remedy;
may institute a proceeding under this act
in the court in which the judgment and
sentence on conviction was imposed to
secure the appropriate relief. Excluding a
timely appeal, this act encompasses and
replaces all common law and statutory
methods of challenging a conviction or
sentence.

